BO CIvET NUMBER:

im

L

SUPREME COURT OP THE UNITED STATES
(TERM: OCTOBER 2020-2021)

Supremo Court, U S.
FILED

JUN 1 6 2021
PAUL M. POUPART

OFFICE OF THE CLERK

versus
STATE OF LOUISIANA, ET AL.
C/Os JEFFREY LANDRY, ATTORNEY GENERAL

ON PETITION FOR A WRIT OF CERTIORARI TO
THE LOUISIANA SUPREME COURT NO, 2021-KK-00210

"PETITION FOR WRIT OF CERTIORARI”

FILED BY:
LOUISIANA DEPARTMENT OF
PUBLIC SAFETY & CORRECTIONS
ELAYN HUNT-CORRECTIONAL-CENTER
INMATE, PAUL M. POUPART, #357073
6925 HIGHWAY 74, POST OFFICE BOX 174
SAINT GABRIEL, LOUISIANA 70776-0174
225.642.3306
(Pro se Counsel of Record)

JUN 11 20^
i.

I

QUESTIONS PRESENTED EOK REVIEW

Has the State of Louisiana and its Judicial Officers
created and/or imposed an ex post facto law violating the
Petitioner's federal due process rights under the Constitution
and would this conduct he considered as fraud upon the court
subjecting the Petitioner to cruel and unusual punishment from
a state statute that has been determined unconstitutional
which should he settled as 'retrospective' on state collateral
review?

2.

PARTIES TO THE PROCEEDINGS
The Petitioner is Paul M. Poupart, the inmate and the
inmate/petitioner in the Courts below. The respondent is the
Attorney General of the State of Louisiana, Jeffrey Landry,
who is the defendant/appellee in the Courts below.

24th Judicial District Court
Parish of Jefferson
State of Louisiana
Case No. 09”4796
Fifth Circuit, Court of Appeal
State of Louisiana
Case No. 20-KH-360
Louisiana Supreme Court
State of Louisiana
Case No. 21-KH-210

CORPORATE DISCLOSURE STATEMENT
I, Paul ffi. Poupart, do not own any parent corporations in
these United States of America, nor do I own 10# of any corpor­
ation or publicly held company in any foreign jurisdiction.
/

Paul ffi. Poupart

3.

TABLE OP CONTENTS

Cover page................•......................
Questions Presented For Review*..,
Parties to the Proceedings........
Corporate Disclosure Statement....
Table of Contents..........................
Table of Authorities.........................
Citations of Reports............ •••••
.....
Basis for Jurisdiction.....................
« e
Constitutional Provisions Involved
e •
Concise Statement of the Case........
Direct Arguments.
Prayer for Relief ........
Appendix X
Appendix II 0»o eo8«e.ao<5009e..ceeeeoooe.eooo®.e®®
Append! Ill

4.

1
2

3
3
4
5 - 6b
7
8
9
10
11 - 24
24

I

TABLE OP AUTHORITIES
S t at 6 S

12, 13, 14, 22

House Bill 307
la.C.Cr.P., Art. 930.8(A)(2)
LSA-R.S. 14:122

10
10, 12, 13, 14, 15, 16, 17
18, 19, 20, 21, 22, 23

Federalt
United States Constitution
United States Constitution, Art. 1, S. 10
U.S• Constitution, First Amenment
U.S, Constitution, Eighth Amendment
U.S. Constitution, Fourteenth Amendment

12
12, 21
18
12, 13, 14, 21

Ahleman, Booth (1859)
62 U.S. 506

21

Beasell, Ohio (1925)
269 U.S. 167

15

Bousley, United States (1998)
523 U.S, 614

23

Bullock,.United States (1985)
763 F.3d 1115

16

Calder,.Ball (1798)
1 LEd 48

15

Carr, State (1890)
127 Ind. 204

24

Chicago,- Indianapolis & Louisville Ry •
227 U.S*-559

f

Hackett (1912)

22

Collins, Youngblood (1990)
496 U.S. 37

14

Danforth,.Minnesota (2008)

23

552 U.S, 264
23

Davis, United States (1973)
417 U.S, 333

13, 17, 19

Ex parte, Siebold (1879)
100'U.S. 376
5*
> -i

(continued)
Florida, Mellon (192?)
273 U„S0 12

21

Golden Years Homestead Inc* , Buckland (SD Ind. 2006)
466 F.Supp.2d 1059

20
. 20

Hines, Davidowitz (1941)
312 U.S. 52
In re:, Holladay (llth Cir. 2003)
331 F * 3d 1169

22

In res Medley (1889)
134 U.S, 160

23

In re, Village of WilloWbrook (1962)
27 Ill. App.2d 393

17

Kenner, C.L.R, (7th Cir. 1968)
387 F»2d 689

16

Linkletter, Walker (1965)
381 U.S. 6i8

21

Los Angeles, Los Angeles Water Co0 (1899)
177 U*S* 558

22

Moore, Sievers (1929)
366 Ill. 316

17

Parker, Skinner, Dameron (la. 1920).
86 So. 716

12

Penry, Lynaugh (1989)
492 U.S. 302

23

People of Illinois, Sterling (1934)
357'Ill. 354

17

Saffle, Parks (1990)
494 U.S. 484

24 •
1

Sawyer, Smith (1990)
497 U.S. 227

23

Schriro, Summerlin (2004)
124 S.Ct. 2519

22

6.

(continued)
12, 13, 14, 15, 19, 20, 24

Seals, McBee (5th Cir0 2018)
898?.3d 587

20, 21, 23

Teague, Lane (1989)
489 U.S. 288

19, 20

Tyler, Cain (2001)
, 533 U.S. 656

15

United States, Gould (4th Cir. 2009)
568 F.3d 459
United States, Stevens (2010)
559 U.S. 460

12, 13, 16

United States, Wheeler (1978)
435 U.S. 313

21

Virginia, Black (2003)
538 U.S. 343

19

Weaver, Graham (1981)
450 U.S. 24

15

Secondary authorities;
Cooley, "Constitutional Limitations11 (Fifth Edition)

23

Field, "Effect of an Unconstitutional Statute" (In. L. Jour.
Volume I, Issue I, Article I - 1926)

24

Meador

"Habeas Corpus and the Retroactivity Illusion"
50 Va. L. Rev. 1115 (1964)

Torcia and King, "The Mirage of Retroactivity"
66 Dick. L. Rev. 269 (1962)

6(h).

22
22

CITATIONS 0? REPORTS
State v. Poupart, No. 09-4796 (2011)
State v. Poupart, 88 So.3& 1122 (La. App. 5 Cir. 2012)
State v. Poupart, 98 So.3^ 867 (La. 2012)
with:
State, ex rel •

t

Poupart v. State, No. 09-4796 (2020)

State, ex rel., Poupart v. State, No. 2020-KH-360
State, ex rel • 9 Poupart v. State, No. 2021-KH-210
from:
State, ex rel., Poupart v. State, Mo, 09-4796 (2019)
State, ex rel 0 9 Poupart v. State, No, 2019-KH*-255
State, ec rel
Poupart v0 State, No, 2019-KH-1679
® 9

1.

BASIS FOB JURISDICTION
On March. 23, 2021, the Louisiana Supreme Court denied the
Petitioner's Application for Post-Conviction Relief affirming
the decision by the Fifth Circuit, Court of Appeal made on
November 16, 2020, and re-affirming the decision of the 24th
Judicial District Court, Parish of Jefferson to deny relief on
August 19, 2020* Petitioner did not seek any rehearing in the
Louisiana Supreme Court due to the 'one word* denial.
The statutory provision believed to confer this Court's
jurisdiction on this petition is Title 28 U.S.C* S* 1257(&)>
which states;
"Final judgments or decrees rendered by the highest court
of a State in which a decision could be had, may be re­
viewed by the Supreme Court by writ of certiorari where
the validity of a treaty or statute of the United States
is drawn in question or where the validity of a statute
of any State is drawn in question on the ground of its
being repugnant to the Constitution, treaties, or laws
of the United States, or where any title, right, privi­
lege, or immunity is specially set up or claimed under
the Constitution or the treaties or statutes of, or any
commission held or authority exercised under, the United
States."
See Page 8a for further Jurisdiction

8.

Statement.

Article III § 2. cl. 1
This Court to have original jurisdiction Pursuant to Article III § 2 cl. 1, A Petitioner must
demonstrate: (1, 2, 3)
(1) They have suffered an "injury in fact." which is an invasion of a legally protected interest
that is concreat and particularized rather than conjectural or hypothetical; (2) there is causual
connection between the injury and the conduct complained of such that the injury is fairly traceable to
the defendant's challenged action, and not the result of the independent action of some third party not
before the Court; and (3) the injury likely will be rendressed by a favorable decision. U.S. Const. Art. 3,
§2, cl. 1.
Injury in Fact:
Pursuant to the Fifth Amendment to the U.S. Constitution, it states, in pertinant part, that" No
Person shall... be deprived of life liberty, or property, without due process of law ..."
The due process clause, found in the Fourteenth Amendment to the United States Constitution
States, in Pertient part,".... No State shall make or enforceany law which shall abridge the Priviliges or
immunties of citizens of the United States, nor shall any state deprive any person of life, [liberty], or
property without due process of law, nor deny to any person within its jurisdiction the equal protection
of the laws."
This Court's Jurisdictionprudence clearly advises that a personcannot be prosecuted or
imprisoned for, an unconstitutional and/ or invalid statute. However, that is exactly what has happened
in this case.
According to the First Amendment to the United States Constitution: "Congress shall make no
law.... abridging the freedom of speech..." This Constitutional right extends to state congress(es).
In Seal's v. McBee, 898 F.3d 587 (5th Cir. 2018), The Attorney General of Louisiansa

2a

constitutional provisions involved

The constitutional provisions involved are as followed;
House Bill 307
La.O.Cr.P., Art. 930.8(A)(2)
LSA-R.3 14 s!22
United States Constitution
United States Constitution, Art. 1, S. 10
U.S 0 Constitution, Hirst Amendment
U.S. Constitution, fourteenth Amendment
These provisions are somewhat lengthy and their citation
is provided in compliance with U.S, Supreme Court Rule, 14(1)(t)
May it please the Bench.

9.

CONCISE STATEMENT OF THE CASE
On August 14, 2009, Petitioner was billed for a criminal
violation of state statute LSA-R.S 14?122. Petitioner was tried
andconvicted. Petitioner timely appealed bis conviction which
was affirmed. Thereafter, Petitioner sought Post-Conviction
HElief which was also denied raising federal questions. Peti­
tioner then sought a timely 2254 Habeas Petition in the federal
forums which was denied at all levels.
While seeking Habeas Review, the state statute Petitioner
was convicted of was held unconstitutional by a federal appell­
ate court. Petitioner then filed a timely Post-Conviction to
establish its retrospective application under state procedure
Xia.C.Cr.P., Article 930.8(A)(2), which was denied at all state
levels. After that denial, Petitioner, with diligence, found
that the state courts committed fraud upon the court and impos­
ed an ex post facto law against him and he exhausted these fed­
eral questions within one year of the retroactive application.
Hence the arrolication stems from the timely PCR filed in
the state courts under the procedure above. These federal questions were timely raised for this Court's jurisdiction. See,
Appendix.

10
\

DIRECT ARGUMENTS

Today, Petitioner, Paul M. Poupart, hereinafter referred
to as the "federal citizen", will argue the reason why this
United States Supreme Court should grant certiorari in this
case and to consider whether a state court of last resort has
decided an important federal question that conflicts with the
decision of a United States Court of Appeals and whether a
state court has decided an important question of federal law
that has not "been, hut should be, settled by this Court.
These arguments will establish whether: (l) the State of
Louisiana and its judicial officers created and/or imposed an
ex post facto law; (2) whether this conduct violated federally
protected due process of law rights; (3) whether this conduct
cotild be considered as fraud upon the court; (4) whether this
conduct has subjected the federal citiz-en to cruel and unusual
punishment; and (5) whether a state statute determined by a
federal judiciary to be unconstitutional should be settled to­
day as Retrospective* on state collateral review.
May these arguments please the Supreme Justices.
QUESTION #1: HAS THE STATE OP LOUISIANA AND ITS: JUDICIAL OPPICERS CREATED AND/OR IMPOSED AN EX POST PACT LAW
VIOLATING THE PETITIONER'S FEDERAL DUE PROCESS
RIGHTS UNDER THE CONSTITUTION AND WOULD THIS CON­
DUCT BE CONSIDERED AS FRAUD UPON THE COURT SUBJECT­
ING THE PETITIONER TO CRUEL AND UNUSUAL PUNISHMENT
PROM A STATE STATUTE THAT HAS BEEN DETERMINED UN­
CONSTITUTIONAL WHICH SHOULD BE SETTLED AS 'RETRO­
SPECTIVE' ON STATE COLLATERAL REVIEW?

11.

On August 3, 20X8, the United States Court of Appeals for
the Fifth Judicial Circuit held that the State of Louisiana
criminal statute of LSA-R.5. 14:122, is facially unconstitution­
al as it violates the First Amendment to the Constitution.
On August 1, 2019, the State of Louisiana enacted House
Bill 307 (Act 311), to comply with the federal court's ruling
in Seals v. McBee, 898 F.3d 587 (5th Cir. 2018)„ (Appendix HI
at 112-113)
The Seals Court stated?
"This, insofar as it criminalizes 'threats', Section
14sl22, is unconstitutionally overbroad."
The Louisiana Supreme Court Justice Provosty stated for
1920 Bench: "An unconstitutional statute is null and void, has
no legal existence whatever, is no statute." Parker v. Skinner
v, Dameron, Ho. 26271, 148 La. 143, 86 So. 716, 1920 La. LEXIS
1685 (La. 1920).
Today the federal citizen presents his application in re­
quest of the great writ of certiorari to seek this Court's in­
telligent considerations on whether the state and its judicial
officers imposed an ex post facto application of LSA-R.S. 14s122,
and has condemned the federal citizen's federally protected
'rights and privileges' under the Constitution.
Article 1, Section 10. of the Constitution states that:
ex cost facto law • « •
"no state shall...pass any
These 'rights and privileges', as this Court intelligently
understands, stem from the now 14th Amendment of the Constitution's Fifth Article. This Bench of 2010, held:
© * •

"Although courts may construe statutes to avoid consti­
law to conform
tutional doubts, they may not rewrite a
it to constitutional requirements." United States v.
Stevens. 559 U.S. 460 (2010).
• ♦ •

The federal citizen's arguments today reflect a deprivation
of liberty. LSA-R.S, 14:122, was held unconstitutional by a

12.

[

federal judiciary authorized to protect the Constitution
amongst all citizens of these lands.
In accord with common, law that a statute which is declar­
ed unconstitutional is void 'ah initio1 - that citizen accused
of a crime and convicted under an unconstitutional statute is
entitled to a reversal and as a consequence, his freedom. See,
Bx parte, Sieboia, 100 U„S0 376 (1879).
Does the federal citizen today deserve his liberty as a
consequence of the nulled and voided state statute?
The federal citizen directs this and these holdings as a
denial of the Due Process Clause. The 'due diligence' that the
federal citizen has had to undergo found that Louisiana cannot
pass an ex post facto law, whether by its own constitution or
by the federal constitution.
Your Supreme Honor(s), the Courts very naturally must come
to regard themselves as the guardians of the rights of the peo­
ple which are in constant danger of being invaded by the legis­
lature or by the executive branches of government.
Seeing this, in 2019, the Louisiana Legislature 'rewrote'
LSA-R.S. 14sl22, and enacted certain provisions to meet the
Seals decision, as it is evidenced. The enactment of House Bill
307t supplemented previous provisions, and although the federal
citizen has earnestly petitioned for relief, Louisiana has chose
to impose these 'new1 provisions to the federal citizen's case.
Shouldn't the rule in the Constitution prevail for the
federal citizen today? Did the Louisiana Legislature overstep
its activities? According to United States v, Stevens?
The federal citizen's argument is whether Louisiana has
imposed an ex post facto law and whether that 'inference' is a
deprivation of the LibertyClause of the 14th Amendment.
If this Court will now see the opinions of the state courts
in this instant matter. (Appendixes:Pagefr 70. is*-/**)
These decisions should constitute an imposition of the
newly enacted House Bill 307, to a petition seeking state coll-

13.

ateral relief*
On April 17, 2019, the state district court announced its
ruling that the federal citizen used 'corrupt intent* when mak­
ing his threats to a third party. The Seals Court stated that
'corrupt intent* was not found in the text of the statute any­
where, hut Louisiana argued that 'corrupt intent* is a gloss
and was conclusive on the federal judiciary. The Seals Court
accepted the gloss (although not explicit) only for the pur­
pose of Seals.(Appendix III, at 70)
The federal citizen today argues that regardless of the
gloss not explicitly in the text of the statute, the Seals
Court only accepted it for Seals, not for other cases. Was it
prorer for the state district court to announce that the feder­
al citizen used a 'corrupt intent* to a third party to take
lawful action to publish a photograph? This action is not a
violent or unlawful act, even if associated with a promise. The
federal judiciary, in its holding, enjoined Louisiana from enforcing LSA-R.S 14$122's prohibition on 'threats'. By enjoining the entire State of Louisiana, the federal citizen at this
Supreme Bench today is the only citizen left in the penal system
that has not been afforded this 'liberty* defined by the 14th

Amendment •
Continuing on, the federal citizen shows this Court that
on July 8, 2019, less than (30) days before HB 307, became
effective as law and on a timely Post-Conviction Application,
the state appellate court used the terms: 'extortionate threats',
'true threats', 'extortion1, and 'corrupt intent1 to deny the
federal citizen's counsel's claim that Seals should be applied
to his case and conviction. These opinions are clearly' the newly
amended urovisions of LSA-R.S. 14sl22, and not the specific
elements of the statute in 2011, which do not apply to the fed­
eral citizen without a new trial* Collins v. Youngblood, 497 U0S,
37 (1990).(Appendix III, at 95-101)
In 1798, this Supreme Court outlined four categories of ex
f-

»j*i

■ ■ i ■ i ■■

14.

post facto laws. They were?
a.) a law making criminal and subject to punishment an
activity which was innocent when originally done?
b.) a law aggravating a crime or making it a greater
crime than it was when originally committed?
Co) a law aggravating a crime's punishment;
a.) a law altering the rules of evidence to require less
or different testimony than was required at the time
of the commission of crimes.
(See, Calder v. Ball, 1 LEd 48 (1798).)
One hundred and twenty seven years later this Court also
determined that ’changing the burden of proof* was also ex post
facto. The federal citzen today is in a stable with so many fed­
eral rights and privileges that are being ignored. Beazell^
Ohio, 269 U.S, 167 (1925).
To conclude whether Louisiana has imposed an ex post facto
law, the federal citizen argu.es that the effect of the Seals
decision as it correlates to ’threats’ was overbroad and the fed­
eral citizen was convicted of an overbroad and unconstitutional
state statute. With that, the decisions of the state appellate
court, which were affirmed by the Louisiana Supreme Court,
advances a wanton disregard for the rights of others and shows
that the state appellate court was wrongly applying LSA»R.S±_14s.
1221s new provisions to a 2011, provisional trial.
Today, the federal citizen requests the great writ of cert­
iorari to issue to the Louisiana Supreme Court regarding this
and these decisions by the State of Louisiana. (See, United
States v. Could, 568 E.3d 459 (4th Cir. 2009), and Weaver v._
graham, 450 U.S. 24 (1981).
***

15.

The federal citizen now continues on with the second part
of his question, which iss Would this conduct of the State of
Louisiana he considered as 'fraud upon the court'?
The Louisiana Legislature re-enacted hSA-R„S 14sl22,
outside of United States y, Stevens, supra; where again this
Court held that; "Courts may construe statutes to avoid constitutional doubts, hut they may not rewrite a law to conform .it
to constitutional requirements.” Not only did Louisiana rewrite
LSA-K.S. 14:122, its state judiciary applied its newly enacted
provisions before the new provisions were effective as state
law7 and six Justices of the Louisiana Supreme Court failed to
recognize this adjudication. The Honorable Justice Jefferson
HUghes was the only Judge that would have reversed the federal
citizen's case.(Appendix III, at 13)
The federal citizen before this Bench recognizes that
'fraud upon the court' is a scheme to interfere with the judi­
cial machinery performing tasks of partial adjudication. This
fraud consists of conduct so egregious that if undermines the
integrity of the judicial process.
The United States Court of Appeals for the Tenth Circuit
held that 'fraud upon the court* is fraud which is directed to
the judicial machinery itself, and not fraud between the parties.
This federal judiciary also described 'fraud* as:
"Whenever any officer of the court commits fraud during
a proceeding in the court, he or she is engaged in fraud
upon the court•"
(See, Bullock v. United States, 763 B.3d 1115 (1985).
The federal citizen argues that the State of Louisiana and
judicial
officers have acted in 'bad faith' to adjudicate
its
him and consider that his case is final, encompassing the stan­
dard of 'true finality'. That finality is contradicted today
by the July 8, 2019, ruling by the state appellate court which
can never be final according to the decisions of Kenner v._..J3hR,
387 R * 2d 689 (7th Cir. 1968).

16.

Some standards of •fraud* were:
?eop3.e of Illinois v. Sterling, 357 Ill* 354 (1934)*
fraud vitiates every transaction into which it
applies to judgments as well as to contracts and
other transactions • © c ')

c

• 6 «

Moore v, Sieversc 366 Ill* 316 (1939)*
fraud vitiates every transaction into which it
('
enters
•)
0 0 1

■ 00

In re0 Village of Willowbrook, 27 Ill. App. 2d 393 (1962),
(’

6 0 0

it is axiomatic that fraud vitiates everything ©

• o

’)

Bearing in mind these facts of other citizens and the fact
that the State of Louisiana and its officers participated in the
following acts causes the federal citizen today to seek this
Supreme Bench's interpretation of his federal 'rights and priv­
ileges' protected hy the federal constitutions
a.) the state trial court applied a non-existant provis­
ion to aid in its judicial ruling;
b„) the state appellate court applied a non-existant pro­
vision to aid in its judicial ruling;
c„) the state supreme court failed to correct its officers
conduct;
d.) the state legislature 'rewrote' LSA-B.S, 14sl22;
Seeing these acts, the federal citizen is requesting a
'release' by the standards in Siebold, supra; a very important
precedent still active today and prospective to the federal
citizen's case and conviction. The states of Indiana, Texas,
Minnesota, Kansas, Nebraska, and Kentucky have supported this
standard that 'freedom is deserved' to one convicted of an un­
constitutional statute; as this Supreme Court held. May these,
arguments consider that the federal citizen is being subjected
to cruel §.nd unusual punishment, a cel jour.

17.

TT

The 8th Amendment to the Constitution protects the citizens
of this country from cruel and unusual punishments Because the
federal reporters have such a vast array of case law on the sub­
ject , the federal citizen today puts this determination to its
provisions and prays that this Court see this cruel and unusual
punishment hy this state's government,, The federal citizen is
of this belief and requests release from custody from this one
Supreme Bench.* May it so be.

If Your Supreme Honor(s) would continue with the federal
citizen, he will address the 'unconstitutional' rule rendered by
the federal judiciary concerning LSA-R.S. 14si22, and he will
give direct statements for reason why this statute's determina­
tion should be settled as 'retroactive' on state collateral re­
view, This and these statements concern a state court's ruling
in conflict with a ruling by the United States Cou£t of Appeals,
To begin, this Bench intelligently understands that a State
of Louisiana criminal statute has been held as unconstitutional
by its own federal judiciary* This federal judiciary through the
United States District Court for the Eastern District of Louisiana "enjoined" the entire State of Louisiana from enforcing
LSA-R.S, 14sl22*s prohibition on 'threats*.
For many years the State of Louisiana has been criminalizing
speech. On August 14, 2009t the State of Louisiana criminalized
the federal citizen for allegedly speaking to a third party.
Earlier the federal citizen argued that these alleged statements
were not unlawful or an act of violence. Was the federal citizen's
conduct as alleged criminal? The citizen today believes it was
the third party's choice to repeat the alleged statements to the
off-duty officer. Had the third party chose to keep this conver­
sation to himself, would this petition be before this Bench today?
The standard that creates 'true threats* is a federal one.

18.

The implied choice of the third party to repeat these alleged
statements that was neither unlawful nor stated to commit an
unlawful violent act. Where is the crime of intimidation without
the third party?
If this Bench would now see Virginia v. Black, 538 U.S, 343
(2003) it would summarize that this statement to a third party
considers the federal citizen to he actually innocent of a state
criminal law* The federal citizen never once made a serious ex­
pression of an intent to commit an act of unlawful violence to­
ward any specific person, therefore, the State of Louisiana is
continuing to "enforce" LSA-ff.S, 14s122, against the federal
judiciary's directives. Seals, supra.
The ruling hy the U.S. Court of Appeals is somewhat lost in­
side federal procedure for the failure of the State to seek U«S«
Supreme Court adjudication. The.federal citizen cannot achieve
a federal review; because this Bench has not explicitly ruled that
LSA-R.S. 14;122, is 'retrospective* on state collateral review.
Because of this failure of the Attorney General of the State
»<!»■

of Louisiana to challenge the Seals decision, the federal citizen
is at a fork in the road that leads only to finality or a 2241
Petition. Both paths are strenuous for the citizen because fin­
ality is presumed upon an unconstitutional state statute and 2241
Petitions are difficult to meet without this Bench's approval.
Cain," addressed that 2244(b) states;
The standard in Tyler v ..........

"...a state prisoner can prevail under AEDPA only if the state
court's decision was contrary to or involved an unreasonable app­
lication of clearly established -federal law, as determined by the
"5 at 533 U.S. 656 (2001).
Supreme Court of the United States
Por the federal citizen - the decision in Seals has never
• 0 •

reached this Bench's adjudication save the citizen's recent denial
by this Court on his Heck claims. That decision was overwhelming
for the citizen because its effect contradicts Siebold, where
the citizen only demanded 'release'. However, the issue today is
whether Seals should be 'retrospective* to state collateral re-

19.

•

T

view, explicitly* The federal citizen "believes this matter of
'retroactivity* should he settled today, for he is the only
citizen serving a punishment under LSA-R.S. 14tl22.
This question presented to this Bench ms of detrimental
importance. First, we have constitutional rights violations hy
public officers and courts; and, secondly, a federal citizen
is being confined by a state law that is void. The federal cit­
izen humbly requests that this Bench determine with reasons that
Seals v. McBee, and its dictum should be 'retrospective' on
state collateral reviews in accordance with Tyler v* Cain, supra*
Your Supreme Honor(s), again, the federal judiciary opined
that the Supremacy Clause of the Constitution secures federal
rights by according them 'priority' whenever they come in con­
flict with state law* GoJjlen_Years^Jjomestead Inc..... vuckland,
466 F,Supp.2d 1059 (SB Ind. 2006).
Today, the federal citizen requests this same 'priority*
to settle the retroactivity* of Seals* Is not the U.S. Count of
Appeals an 'inferior count' with appellate jurisdiction? Albeit
that the State of Louisiana is claiming a privilege under its
■ state common law by invalidating this 'constitutional interpre­
tation'; this persuasive authority cannot continue to be ignored.
Teague v. Lane, 489 U.S 288 (1989), the uncontested present
rule on retroactivity for state and federal inmates brings two
definite exceptions on whether a new rule should be retroactive.
The federal citizen believes Seals meets both prongs, The
new rule is substantive and was held unconstitutional. This
Bench should be inclined by the citizen's argument to determine
that Seals be retroactive for state prisoners because there is
no other federal court (appellate) that has held this rule as
'true retoractivity'. The holdings in Seals could necessarily
dictate a retrospective application of the former state statute.
The case of Hines v. Davidowitz, 312 U.S. 52 (1941), ruled
abd opined that such a conflict arises when compliance with both
federal and state regulations is a physical impossibility, or
when 'state law' stands as an obstacle to the accomplishment
20*

T

and executions of the full purposes and objectives of Congress.
Congress passed the 14th Amendment and the federal citi­
zen’s liberty is at stake here today. Louisiana’s laws stand
today as an obstacle against Seals, and this creates a consti­
tutional conflicts Does the First Amendment not supersede laws
of the States? Does the Constitution prevail over laws of the
States? United States v, Wheeler, 435 U.S. 313 (1978), with
Florida v, Mellon, 2?3 U.S. 12 (1927)*
The lasting precedent of Ableman v. Booth, 62 UeS„ 506
that
(1859), determined that: "while a state is sovereign
sovereignty is limited and restricted by the Constitution."
This Bench’s Court has continued to use Ableman in support of
its decisions for many years. The direct approach that Seals
should be retroactive to the federal citizen’s conviction and
liberty is a vital restriction that the State of Louisiana has
yet to enforce, by order. Although the Results of individual
cases have varied, this Supreme Court has recognized the gener­
al principles of retroactive applications of law to state:
© • •

• • • no

distinction is to be drawn between civil and

criminal litigation."
If this is a positive application of federal law, then
Teague is a standard that contradicts civil and criminal law as
well as the 1789-1791 Constitution; sentiments consideredo Habeas'
petitions are considered civil; shouldn’t a, constitutional app­
lication be available in the very courts that protect the
Constitution- - over a state court’s jurisdiction? L inkle tier y0_
Walker, 381 U.S. 618 (1965)*
How come habeas petitions submitted by state and federal
inmates be wholly prospective? Is a state or federal court incap­
able of deciding a retroactive operation of the Constitution?
This illusion seems, incorrect. The Constitution protects rights
and privileges beginning in 1789 and 1791, and is supposed to
protect all citizens forward - prospectively. By deciding a

21.

y

retroactive application that concerns constitutional provis­
ions that protect this government's people from 1?89 to the
present seems that retroactivity should he ’true retoactivity’,
and only in certain cases that do not involve the Constitution
would quasi-retroactivity apply; not the vise versa. See,
Meador, "Habeas Corpus and the Retroactivity Illusion", 50 Va,
L.Rev. 1115 (1964), with Torcia and King, "The Mirage of Retro­
activity", 66 Dick.1.Rev. 269 (1962).
Schriro v. Summerlin, gave the dictum that

8 8 •

"a retroact-

ive rule only applies to convictions, in limited circumstances,
", at 124 S.Cte 2519 (2004). The fed­
that are already final
eral citizen is quite a limited circumstance being the only
person still serving a sentence for conviction of an unconsti­
tutional state criminal law. In re, Holladay, 331 R03d 1169
(11th Cir, 2003).
In HB 307, the State of Louisiana changed the criminal law
8 8 8

for their interests in federalism, as it seems. But, allowing
the federal citizen to remain in custody from a statute that
became null and void to ’threats’ is wholly unconstitutional;
therefore, all ^threats' under the date of the enactment of
LSA-R.S. 14*122, must be reversed, correct? The CoS. Supreme
Court has said; "That act was therefore as inoperative as if it
had never been passed, for an unconstitutional act is not a law X
and can neither confer a right or immunity nor operate to super­
sede any existing valid law," See, Chicago, Indianapolis & Louis­
ville Ry. v. Hackett, 227 U.S. 559 (1912).
If the doctrine of ab initios' would be applied, the state
statute of 2011, should be rendered inoperative from the date of
its attempted passage by the state legislature. Should this
Bench not treat the statute of LSA-R.S. 14;122, as a matter that
cannot cure its defective statute and release the citizen today?
Los Angeles v, Los Angeles Water Co . < 177 U.S. 558 (1899).
In the following case an inmate was set free because a state
statute was declared unconstitutional as ex post facto was held

22.

to have repealed the previous statute’s subject. In re. Medley,
134 U.5. 160 (1889).
In these arguments the federal citizen understands that
Danforth v, Minnesota, held that state courts are authorized
to make new rules retroactive on state collateral reviews, but
league excepts the federal courts. Confusingly, shouldn't a
prospective application of the Constitution include a citizen's
petition that is conferred on him by the Constitution of 1789
and 1791? The decision in Seals should be settled today as
retrospective to the citizen's case because of the arguments
in the body of this brief and because 'true threats* are quite
different than the provision that existed under a 'broad'
statute* See, Cooley, "Constitutional Limitations" (5thEde)s
where He opined?
"When a statute is adjudged to be unconstitutional, it
is as if it had never been. Rights cannot be built up
under it 5 contracts which depend upon it for their
considerations are void; it constitutes a protection
to no one who has acted under it, and no one can be
nunished for having refused obedience to it before
the decision was made."
Your Supreme Honor(s), Bousley v. United States, deter­
mined that if a new rule changes the scope of the underlying ■
a change of that character will neceriminal proscription
essarily carry a significant risk that a defendant stands con­
victed of an act that the law does not make criminal; at 523
XJ0S0 614 (1998), quoting Davis v, United States, 417 U0S. 333
(1973). Also, in the case of Penry v. hynaugh, 492 U.S. 302
(1989), it was determined that? " • c * a new rule of constitutional
law is a rule that forbids criminal punishment of certain con­
duct or prohibits a category of punishment for a class of de­
fendants because of their status or the type of offense com­
mitted;'* See also, Sawyer v. Smith, 497 U.S. 227 (1990), and
6 « C

23.
\

Saffle v. Parks, 494 U.S. 484 (1990). (58 citizens were serv­
ed notice of the Seals decision - 57 have heen released from
custody.)(Appendix III, ajr 11)

t

Today the federal citizen requests that this One Supreme
Court grant 'certiorari* to these extraordinary matters and
after review RELEASE him to his family, respectively.
May it so he hy the Supreme Minds of these Lands.
(See, Field, Oliver P • t "Effect of an Unconstitutional
Statute", In.L.Journ., Vol. I, Issue I, Art. I,
(1926)..
The End.
i

PRAYER FOR RELIEF
WHEREFORE, I, Paul M. Poupart, now humbly pray that this One
United States Supreme Court grant me the equitable
relief that is conferred on him by the Constitution
by granting the great writ of certiorari in this
instant case and reversing the conviction for him
and releasing me to my family and friends. May it
so be in the interests of justice. Carr v. State,
127 Ind. 204, H L.R.A. 370 (1890).
Humbly Submitted,
Inmate, Mr. Paul M. Pouoart
D.O.C. #357073
Elayn Hunt Correctional Center
6925 Highway 74, Fox 4
Saint Gabriel, Louisiana 70778
225.642.3306

24..

Date

